<html>
<title> - DEPARTMENT OF LABOR OVERSIGHT: MISSION, MANAGEMENT, AND PERFORMANCE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF LABOR OVERSIGHT: MISSION, MANAGEMENT, AND PERFORMANCE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                             JUNE 10, 1997
                               __________

                           Serial No. 105-29
                               __________







Printed for the use of the Committee on Government Reform and Oversight



                     U.S. GOVERNMENT PRINTING OFFICE
42-531                       WASHINGTON : 1997
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                    Subcommittee on Human Resources

                CHRISTOPHER SHAYS, Connecticut, Chairman

VINCE SNOWBARGER, Kansas             EDOLPHUS TOWNS, New York
BENJAMIN A. GILMAN, New York         DENNIS J. KUCINICH, Ohio
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARK E. SOUDER, Indiana              TOM LANTOS, California
MICHAEL PAPPAS, New Jersey           BERNARD SANDERS, Vermont (Ind.)
STEVEN SCHIFF, New Mexico            THOMAS M. BARRETT, Wisconsin

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                       R. Jared Carpenter, Clerk
                    Cherri Branson, Minority Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 1997....................................     1
Statement of:
    Herman, Alexis M., Secretary, U.S. Department of Labor.......     2
Letters, statements, etc., submitted for the record by:
    Herman, Alexis M., Secretary, U.S. Department of Labor, 
      prepared statement of......................................     6
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    34
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    31










  DEPARTMENT OF LABOR OVERSIGHT: MISSION, MANAGEMENT, AND PERFORMANCE

                              ----------                              


                         TUESDAY, JUNE 10, 1997

                  House of Representatives,
                   Subcommittee on Human Resources,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:10 p.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Towns, Barrett, and 
Kucinich.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Jared Carpenter, clerk; Cherri Branson, minority 
counsel; and Ellen Rayner, minority chief clerk.
    Mr. Shays. We will call the subcommittee hearing to order 
and to welcome Secretary Herman. All the members of the 
subcommittee appreciate your accepting our invitation to 
describe your vision for the Department of Labor.
    Over the past 3 years, we have begun our oversight 
partnership in this way with each Secretary of the five cabinet 
departments under our jurisdiction. For us, these hearings 
establish a solid foundation for constructive, nonpartisan 
oversight. For you, it is your chance to help focus our agenda 
on the challenges and opportunities we see facing the 
Department.
    Today, the Department of Labor plays a central role in two 
vitally and recently important public-policy initiatives: 
implementation of welfare reform and health care portability 
reform. Each challenges the DOL's management capacity and 
resources. We look forward to hearing your plans in these 
critical areas.
    In the last Congress, based on work done by the General 
Accounting Office, GAO, this subcommittee began to identify the 
basic operational characteristics of successful job-training 
programs. Now we need to know how DOL's welfare-to-work and 
school-to-work programs will measure up against these 
standards.
    Under the Government Performance and Results Act, DOL's 
draft strategy plan has been received by the subcommittee, and 
congressional consultations are ongoing. Last year, we noted 
some obstacles to Department-wide coordination that could 
hinder results-oriented case management, particularly in the 
area of criminal enforcement. We hope you will address these 
issues today in terms of your immediate plans, as well as your 
longer-term goals under the Results Act.
    Again, Madam Secretary, we appreciate your being here.
    I think, as you know, it is our policy to swear in all 
witnesses, including Members of Congress, and then we never get 
into a problem as to who we should and should not swear in. So 
if you would stand, I will administer the oath.
    [Witness sworn.]
    Mr. Shays. Thank you. We have a number of committees that 
are in markups because of the budget agreement, including the 
ranking member, Mr. Towns, who I feel is an equal partner in 
these hearings. So he wishes me to convey to you that he is in 
markup, and he will be coming hopefully shortly.
    You have a fairly long testimony, but I am more than happy 
to have you put a good deal of it in the record verbally, so 
you can summarize what you want, but you can read whatever you 
would like to, and there is no time problem. You can pick and 
choose, but we certainly will put anything that you want in the 
record that you want to submit, but I am happy to hear your 
testimony.

 STATEMENT OF ALEXIS M. HERMAN, SECRETARY, U.S. DEPARTMENT OF 
                             LABOR

    Ms. Herman. Thank you very much, Mr. Chairman. Thank you 
for your opening comments. I would like to have my full 
statement included for the record, and I would briefly like to 
summarize the full statement for you.
    Let me begin by saying it is a great pleasure for me to 
appear before you today to discuss some of the issues and 
challenges that face the Department of Labor. As you know, I 
have been with the Labor Department for just a short time, and 
I look forward to establishing a close working relationship 
with the subcommittee.
    During the course of the Clinton administration, we have 
made great progress in helping America's working families build 
a better future for themselves. The economy is growing 
steadily. More than 12 million new jobs have been created since 
January 1993. Unemployment is at its lowest rate in nearly 24 
years.
    The recently negotiated budget agreement balances the 
budget and still maintains badly needed investment in 
education, training, health care, and the environment. Both 
you, in the Congress, and we, in the administration, can claim 
credit for this effort, which still needs to be, of course, 
enacted. Yet we still face the challenge of helping every 
American to participate and prosper in the new economy.
    It is our responsibility to make sure that all Americans 
have the opportunity to find and hold secure jobs with good 
wages, reliable pensions, health benefits, and opportunities to 
improve their skills and earning capabilities. Work enables us 
to support ourselves and our families. It affirms our humanity 
and allows each of us to make our own unique contribution to 
the world.
    That is why every worker is entitled to a fair wage, safe 
working conditions, and a sense of dignity and respect. As 
Secretary of Labor, I have established five goals which will 
build on the success of the past 4 years and address the 
challenges that lie ahead.
    They are, first, to equip every working American with the 
skills to find and hold good jobs with rising incomes 
throughout their lives; second, to help people move from 
welfare to work; third, to assure that working Americans enjoy 
secure pensions when they retire; fourth, to guarantee every 
American a safe, healthy workplace, free of employment-related 
discrimination; and, last, to help families balance work and 
family.
    My first goal, to equip all Americans with the tools they 
will need to begin working and then throughout their careers to 
enhance their productivity and raise their standard of living, 
is a goal that I intend to pursue vigorously.
    In our fiscal year 1998 budget request and in negotiations 
on the Balanced Budget Agreement, the President has held firm 
on one of his top priorities: investing in education and 
training to ensure that every American has the schooling and 
the skills to succeed in the increasingly competitive global 
economy.
    We seek to offer all Americans the tools to manage their 
careers in the new economy, and we target the high 
unemployment, low skills, and lack of work experience among 
youth and adults in some of our poorest communities. That is 
why I am particularly delighted that the bipartisan budget 
agreement will include $250 million for the opportunities area 
for out-of-school youth initiatives, which will provide grants 
to 15 to 20 high poverty urban communities for training, an 
estimated 50,000 teens for careers as an alternative to welfare 
and crime.
    Two years ago, President Clinton proposed to dramatically 
overhaul the complex structure of Federal job training programs 
by consolidating multiple programs into a single integrated 
work force development system by providing skill grants or 
vouchers to adults who need training and by improving 
accountability by focusing on results and not process.
    I am specially pleased that the House passed a bipartisan 
bill on May 16 that reflects our common goal of building an 
integrated work force development system and incorporates 
principles similar to the tenets in the President's GI Bill for 
America's workers.
    I look forward to working with the Congress to realize 
enactment of this important legislation this year. After 
enactment, it is our expectation that we will continue to work 
in a bipartisan fashion on its implementation. My second goal 
is to begin successfully to implement the welfare-to-work 
effort launched last year. In our new system, millions of 
people must make their way from a welfare check to a paycheck.
    I started my own career by helping people move from welfare 
to work, and I can tell you it will not be an easy task. It 
will take a profound depth of commitment, learning what kinds 
of skills employers are looking for, equipping welfare 
recipients with those skills, and then convincing employers to 
hire them. Once hired, we need to ensure that we do the best 
job we can to encourage retention if we are to succeed.
    We have requested $756 million in the 1998 appropriations 
for a new Welfare-to-Work Jobs Challenge, which is designed to 
help States and cities move hundreds of thousands of the 
hardest-to-employ welfare recipients that will be in hopefully 
lasting jobs by the year 2000 through job placement and job 
creation.
    My third goal is to assure that workers and their 
dependents are economically secure when they retire. Life-
skills development, economic security, is a lifelong concern. 
We must continue to do all that we can to safeguard private 
pension funds and encourage workers to save on their own for 
retirement. More than 150 million participants and 
beneficiaries depend on the Employee Retirement Income Security 
Act to protect their pension, health, and other welfare 
benefits.
    Employee benefit plans provide critical income and services 
on which workers and their families rely to protect their 
financial security. My charge as Secretary of Labor is to 
protect and strengthen this Nation's private pension system. 
Three weeks ago, Attorney General Janet Reno and I announced a 
successful, multi-agency enforcement initiative. Its purpose 
was to crack down on white collar pension crimes targeted at 
the $3.5 trillion in assets held by the Nation's private sector 
pension plans. This initiative to date has closed 70 cases, 
involving more than 150 participants.
    Just last week, the administration--or I should say today--
the administration transmitted the legislation to Congress, 
entitled the Pension Security Act of 1997. For a number of 
years, Secretaries of Labor and Inspector Generals of the 
Department, as well as at the GAO, have reported to the 
Congress a major loophole in ERISA known as the ``limited scope 
audit.'' The bill would close that loophole. The audit reforms 
contained in the Pension Security Act make limited changes to 
ERISA rules but have the potential to create lasting reform 
with respect to the enforcement of ERISA.
    Mr. Chairman, I ask you and members of this subcommittee to 
commit to working with me to improve the quality of pension 
plan audits to better assure hard-working Americans that their 
pension benefits will be protected.
    My fourth goal is to guarantee every worker a safe and 
healthy workplace, free of employment-related discrimination. I 
spent a substantial portion of the 1970's, including my service 
as director of the Women's Bureau, fighting barriers to 
employment opportunity for women and minorities. I spent most 
of the 1980's advising companies on how to create a climate of 
understanding so that those hired would stay on and succeed 
with their respective corporate cultures.
    In this intensely competitive new economy, smart employers 
must utilize all of the talent that is available to them. We 
must also strive to guarantee safe and healthy workplaces, as 
well as other worker protections. Although most employers make 
good faith efforts to protect their workers, others do not. 
DOL's worker protection agencies, therefore, must maintain a 
credible enforcement presence. Every day, the lives and health 
of American workers are jeopardized by the experiences they 
have at work.
    For this reason, American workers need their Government's 
help and credible enforcement as an important intervention tool 
and an effective deterrent.
    Let me speak briefly to a subject of special interest to 
you, Chairman Shays: the criminal enforcement efforts of the 
Labor Department's agencies. In addition to the work of the 
Independent Office of the Inspector General, five department 
agencies and offices--the Office of Occupational Safety and 
Health, Mine Safety and Health Administration, the Pension and 
Welfare Benefits Administration, the Office of Labor Management 
Standards, the Wage and Hour Division--conduct investigations 
that may lead to criminal prosecutions. I should point out that 
the Solicitor's Office may have had very limited involvement in 
criminal matters as opposed to civil matters, per se.
    In most criminal cases, Labor Department agencies, 
particularly PWBA and OLMS, work directly with the Justice 
Department prosecutors. In recent years, the Inspector 
General's Office has suggested that the criminal enforcement 
coordination among the various Labor Department agencies could 
be improved. The Inspector General's view is that the 
individual agencies could do more work together, despite the 
very real differences in their programs.
    The Department has taken the Inspector General's 
suggestions very seriously. A group was established in the 
Department that brings together the criminal enforcement 
coordinators of the five key agencies at the Department, along 
with the representatives of the Inspector General's Office and 
the Solicitor's Office.
    The Criminal Enforcement Coordination Group has met to 
address common issues confronting the agencies and to build a 
relationship among its key staff. A pilot plan to create an 
interagency, coordinating mechanism in the field is now being 
developed, and in July representatives from other DOL agencies 
will attend a 2-day conference for criminal investigators 
organized by the Office of Labor Management Standards for its 
own staff.
    My last and final goal, helping working Americans balance 
work and families, is something that I have seen work from a 
very practical point of view in the workplace today. I have 
worked with dozens of major corporations and labor unions that 
have adopted policies that support families. This is simply 
good business and good family values.
    And let me just say, as I conclude my remarks, that as a 
former small business owner myself, I am particularly pleased 
with the opportunity to work on the Government Performance and 
Results Act. The Department has traditionally viewed its work 
in this area with an eye toward improving program 
accountability. Much progress has been made in preparation for 
the Government Performance and Results Act implementation.
    The Department has established a results-oriented 
environment and is well positioned to meet its ambitious goals. 
Let me assure you of my own commitment to continue the 
performance-based, results-oriented approach to goal-setting 
and strategic planning. I personally welcome GPRA as a 
management tool to help the Department ensure the value of its 
accomplishments to the American public as well as to the 
Congress. The Government must not only work better, but it must 
also be able to demonstrate that it is working better if we 
expect the public to have confidence in this institution.
    Mr. Chairman, this concludes my prepared statement. I would 
like to thank the subcommittee for the opportunity to discuss 
the issues and challenges of the Labor Department. I would be 
happy to answer any questions that you or other Members may 
have.
    [The prepared statement of Ms. Herman follows:]
    [GRAPHIC] [TIFF OMITTED] T2531.001
    
    [GRAPHIC] [TIFF OMITTED] T2531.002
    
    [GRAPHIC] [TIFF OMITTED] T2531.003
    
    [GRAPHIC] [TIFF OMITTED] T2531.004
    
    [GRAPHIC] [TIFF OMITTED] T2531.005
    
    [GRAPHIC] [TIFF OMITTED] T2531.006
    
    [GRAPHIC] [TIFF OMITTED] T2531.007
    
    [GRAPHIC] [TIFF OMITTED] T2531.008
    
    [GRAPHIC] [TIFF OMITTED] T2531.009
    
    [GRAPHIC] [TIFF OMITTED] T2531.010
    
    [GRAPHIC] [TIFF OMITTED] T2531.011
    
    [GRAPHIC] [TIFF OMITTED] T2531.012
    
    [GRAPHIC] [TIFF OMITTED] T2531.013
    
    [GRAPHIC] [TIFF OMITTED] T2531.014
    
    [GRAPHIC] [TIFF OMITTED] T2531.015
    
    [GRAPHIC] [TIFF OMITTED] T2531.016
    
    [GRAPHIC] [TIFF OMITTED] T2531.017
    
    [GRAPHIC] [TIFF OMITTED] T2531.018
    
    [GRAPHIC] [TIFF OMITTED] T2531.019
    
    [GRAPHIC] [TIFF OMITTED] T2531.020
    
    [GRAPHIC] [TIFF OMITTED] T2531.021
    
    [GRAPHIC] [TIFF OMITTED] T2531.022
    
    [GRAPHIC] [TIFF OMITTED] T2531.023
    
    [GRAPHIC] [TIFF OMITTED] T2531.024
    
    Mr. Shays. Thank you, Madam Secretary. We have been 
joined--Mr. Towns obviously came in first, and as you know is 
in a markup in Commerce, a less important committee than this 
one, but still an important committee. Mr. Kucinich of 
Cleveland is here; Mr. Barrett of Wisconsin; and I do not know 
if any of the three gentlemen, before asking questions, would 
just like to make a statement.
    Mr. Towns. I would just like to ask that my written 
statement be included in the record.
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] T2531.025
    
    [GRAPHIC] [TIFF OMITTED] T2531.026
    
    Mr. Shays. Would you start with the questioning?
    Mr. Towns. Sure. I would be delighted.
    Mr. Kucinich. I would also like to do the same. I have a 
statement that I would like included in the record.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] T2531.027

    Mr. Shays. Mr. Barrett, do you have any----
    Mr. Barrett. I have no----
    Mr. Shays. Well, if I could, I would like to do the 
unanimous consent request. We just have two housekeeping things 
that we need to do, ask unanimous consent that all members of 
the subcommittee be permitted to place any opening statement in 
the record and that the record remain open for 3 days for that 
purpose, and without objection, so ordered; and also ask 
further unanimous consent that all witnesses be permitted to 
include their written statements in the record, and without 
objection, so ordered.
    Mr. Towns, why don't we start with you?
    Mr. Towns. Thank you very much, Mr. Chairman. You are 
right. The reason I was a few minutes late is that we were 
voting in the Commerce Committee, and, of course, I kept saying 
to them, hurry up and vote so I can get down here, because this 
is a very important committee and a very important topic, and 
we are delighted to have the Secreatary of Labor here with us.
    Let me begin by saying, I know there are some things that 
are broken that need to be fixed, and, of course, I know there 
are some things that are running, but not running as fast as we 
would like for them to run. And I want to say that with also 
saying that I am delighted to have given you the ball, but 
recognizing that when you have the ball, you need to have some 
blockers, and I really want to let you know that I consider 
myself as being one of the blockers. And knowing the chairman 
as I do, he is the kind of person who would be one of your 
blockers, too, because he feels very strongly about the issues 
that I know, having just listened to your testimony, that you 
feel about.
    But I would like for you to just sort of expand on some of 
these things for me. No. 1, what is your vision for the 
American worker? I would like to hear where you would like to 
go. In other words, what do you plan to be your legacy as the 
Secreatary of Labor, and will your budget, the budget 
allocations in terms of the money that is being allocated, does 
it reflect in terms of the kinds of things that you would like 
to do and be a part of your legacy?
    Ms. Herman. Thank you very much, Congressman Towns, and let 
me say I appreciate the offer to be a blocker. I can certainly 
use blockers in this environment.
    With regard to my own vision for my tenure as Secretary of 
Labor, it is really a very simple and a very basic vision. I 
want all Americans today, all American workers to be able to 
get good jobs with decent pay and to enjoy a rising standard of 
living throughout their lives. That means for me, in selecting 
the five goals that I have selected, those goals contribute to 
that very basic and simple statement.
    The first goal, as I articulated, to make the appropriate 
investments that we must make in lifelong learning and skill 
development to ensure that workers today not only have the 
opportunity to compete and to prepare for the new jobs that 
clearly will be a part of the new economy that will be in 
particular impacted by technology today, but workers who are 
trapped in the old economy who do not have the skills, who 
perhaps are not as mobile as they need to be to go to where the 
jobs are.
    We need to be equally concerned about those individuals, 
and so for us to be able to target the resources appropriately 
of the Department to make the appropriate investment in skill 
development and lifelong learning that will lead to higher 
productivity is very critical.
    Second, as I talked about the challenge of moving people 
from welfare to work, that I think is also one of the important 
goals of the President, it is important that we ensure that 
these individuals get good jobs with dignity and respect, and 
that they truly can become a part of the economic mainstream, 
which means that we have to find a way to provide these jobs in 
the private sector for the long haul. I am committed to helping 
to make that happen.
    Third, when we look today in particular at the aging of the 
baby boom generation, the whole question of pension retirement 
and pension security, it seems to me, becomes critically 
important, and so my emphasis on pension protection, as well as 
looking at ways of ensuring greater pension portability, is 
also an area that I intend to pursue. How can we make it 
possible in particular for small businesses to set up pension 
plans for their own workers? As a small business owner myself, 
I am particularly sensitive to what we can do to assist small 
businesses, where the largest number of jobs are being created 
today in our economy.
    Fourth, as we talk about the enforcement programs of the 
Department of Labor, we must maintain our enforcement presence 
to ensure that not only are our workplaces safe and healthy, 
but, in fact, they are free of employment discrimination today. 
We, in this economy, as we talk about what it means to compete 
today in the global marketplace, certainly we do not have one 
worker to spare, and to the extent that we can make sure that 
our enforcement programs are protecting the rights of those 
workers, it is very critical.
    And, last, with the increased numbers, as we have seen for 
more than a decade, of two earner families, in particular, we 
know from all reports certainly that we receive at the Labor 
Department that one of the No. 1 factors today that families 
talk about is the stress that they feel as a family in the 
workplace today. So what we can do to help workers balance the 
demands of work and family, it seems to me, is very important.
    With respect to the resources that are in the budget of the 
Department to carry out these goals, I think that the 
President's 1998 budget, in particular, is reflective of these 
priorities.
    I am particularly pleased that the President has made a 
request for additional investments in the employment and 
training area so that we can continue to make the appropriate 
investments in skill training and development, especially the 
Out-of-School Youth Initiative, where the President has 
requested $250 million for the highest areas in our country 
today where we have high rates of youth unemployment and high 
incidences of poverty.
    All of these efforts I hope to work on as Secretary of 
Labor to take us back to that very basic vision statement of 
basically helping every worker to have a good job, to get a 
good job, to keep a good job, but to also be concerned about 
our rising standard of living today.
    Mr. Towns. In the 15 years that I have been here, this is 
the first time I have said to the Secretary, I want to be 
identified with that. I yield back.
    Mr. Shays. I thank the gentleman.
    Ms. Herman. Thank you.
    Mr. Shays. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman, members of 
the committee. I want to welcome Madam Secretary, and I will 
probably be seeing a lot of you because not only am I fortunate 
to be on Mr. Shays' subcommittee, but I am also a member of 
what was formerly known as the Labor and Education Committee. 
These are two assignments that I requested because I know there 
is juncture with the work of the Labor Department, and I am 
quite pleased that you have the opportunity to serve as 
Secretary.
    As someone who, in the Ohio Senate, had a 100 percent labor 
voting record, actually the only member of the Senate with that 
record, I expect that we will be talking quite often about the 
needs of the people I represent from Ohio's 10th District.
    There is one area of concern that I have that perhaps you 
could give some thought to, and that is the underutilization of 
NAFTA/TAA funds for dislocated workers. As I am sure you know, 
this NAFTA/TAA program provides Federal resources to workers 
who have been displaced because of the impact of NAFTA. And 
although many plants have been certified by the Department of 
Labor as being affected by international trade policies, it 
appears that NAFTA/TAA funds are being underutilized. For 
example, at the end of 1996, about $13 million in NAFTA/TAA 
funds for fiscal year 1995 and fiscal year 1996 remain 
unobligated.
    I might add that if they are not spent by September 30 of 
this year, they could go back to the Treasury. And I wondered 
if you have any thoughts on this problem or plans or 
considerations to increase the awareness of available NAFTA or 
TAA funds around the country?
    Ms. Herman. Yes, I do, Congressman, and I think that you 
said the key words at the end of the statement, and that is we 
have to do a better job of increasing the awareness of the 
availability of the NAFTA funds. In looking at the programs in 
the Department, both the Trade Adjustment Assistance Program 
and the NAFTA Program, as you know, both of these programs 
perform a similar function, but clearly the historical nature 
of the Trade Adjustment Assistance Program is one that is 
probably viewed as a program that is being more user-friendly.
    It is also a program, clearly, that is better known in 
terms of its availability and what it can do for affected 
communities. We, as you know, do not have any available 
resources left, quite frankly, in the Trade Adjustment 
Assistance Program. Those resources, we do use, and I am 
looking into this really to support my own hypothesis here of 
what I believe is taking place, but I do recognize that to the 
extent that many individuals who are able to utilize the NAFTA 
funds have also sought the use of the Trade Adjustment 
Assistance Budget, not knowing about the availability of the 
NAFTA resources that are there.
    So what I think what we have to do is to do a better job of 
communicating what the program does and to make that 
information available to affected communities so that they can 
avail themselves of those resources.
    Mr. Kucinich. Madam Secretary, thank you. I would be most 
interested in hearing what your plans are as they unfold, and 
we are working up against a deadline right now, because those 
funds will be returned to the Treasury by September 30, unless 
other legislative action is taken. I think it is much easier to 
try to find ways of getting the information out and make those 
funds available as opposed to trying to seek a reauthorization 
of spending.
    Ms. Herman. Yes. I would certainly agree with that, and we 
will do everything that we can to try and accomplish that end.
    Mr. Kucinich. And one final note. I do not really have any 
confidence in NAFTA, one of the reasons is because I have never 
seen the Department produce any information about the jobs that 
have actually been created. We do know from NAFTA/TAA about the 
jobs that are lost or certified. I would like to see some 
certification of jobs created presented to the Congress at some 
point in the future.
    Ms. Herman. Thank you very much, and we will certainly take 
a look into that situation as well. It is something that I, 
too, have an interest in as we look at what we are doing more 
globally on the trade front, and I think that is information 
that can be beneficial to all of us.
    Mr. Kucinich. Thank you, Madam Secretary, and thank you 
very much for serving our country.
    Ms. Herman. Thank you.
    Mr. Shays. Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman; and Madam Secretary, 
it is a delight to have you here. Congratulations on your 
confirmation.
    Ms. Herman. Thank you very much.
    Mr. Barrett. I am glad I am not reading so many stories 
about you. I am glad you are in your job.
    Ms. Herman. So am I.
    Mr. Barrett. I want to echo my colleague from Ohio's 
comments on NAFTA and the need to quantify what the changes are 
in jobs. I represent Milwaukee, WI, and it is a community where 
unfortunately we are tapping into the Department of Labor all 
too often for funding for companies that have reduced their 
work force as jobs move out of the country. And I think it is 
imperative that we get an accurate handle on how exactly this 
trade pact is working so that we can see who the winners are 
and who the losers are.
    A couple of other points that I want to make, and most of 
these arise from parochial issues that I think probably 
resonate throughout the country. One pertains to Pabst Brewery, 
which for almost 150 years was located in the district that I 
represent and recently closed its doors. The Department of 
Labor has been helpful, and I want to thank you on behalf of 
that as we attempt to fight in the courts the denial of 
benefits to retirees.
    And I think that this is something that the Department of 
Labor has to be far more aggressive on, not only in the area 
that I represent, but throughout the country where you have a 
situation where workers have been promised benefits, and those 
benefits were promised through collective bargaining 
agreements, and years pass and you have different people at the 
table, and promises that were made at one time are no longer 
honored, in part because you have different pressures on the 
people who are in the community.
    Maybe you can tell me what, if anything, your Department 
has looked into in this arena or if you have any plan.
    Ms. Herman. Thank you very much, Congressman, for, first of 
all, the compliment to the Department for its work in this 
area, because I do think, as you have stated, it is a very 
critical issue today that certainly is impacting many of our 
retirees. We have actually filed five friend-of-the-court 
briefs similar to the Pabst case that has impacted more than 
89,000 workers to date. We do believe that where benefits have 
been promised as a part of retirement health plans, that there 
is some obligation on the part of employees to honor that 
obligation, and where we can make our views known in court 
cases, the Department has done that.
    We will continue, obviously, to monitor these plans where 
those commitments are made and encourage employers as best we 
can to honor those commitments.
    Mr. Barrett. And I appreciate that, and, again, I think 
that you have done a wonderful job. I would be more than 
interested to work with the Department if you have suggestions 
where legislative changes are necessary. Again, my fear is that 
we have not seen the end of this, that as companies feel 
greater and greater pressure to cut costs, that this is a very 
convenient way for them to cut costs, notwithstanding the fact 
that promises have been made and court decisions have been 
quite tight in allowing for extrinsic evidence to show that 
these promises were made and should be kept.
    Another area that is similar to that that I am, again, 
quite confident that the Department is aggressive on is the 
whole issue of ERISA and pension benefits. Again, for system 
reasons, I think that it is imperative that the Department 
remain very vigilant to ensure that benefits that have been 
placed in accounts on behalf of workers are used for that.
    Ms. Herman. I would certainly concur with that statement. 
That is why in my opening statement I was pleased to reference 
the fact that approximately 3 weeks ago, as Secretary of Labor, 
and with Attorney General Janet Reno, we actually did announce 
several criminal indictments, as well as civil cases, against 
more than--I believe it was 70 employers who had defrauded 
their workers of more than $90 million. So what we can do to 
aggressively enforce the law when it comes to pension 
protection is very, very important.
    Mr. Barrett. OK. And my good friend, Congressman Shays, is 
always quite generous with time in the way he handles this 
committee, and I want to thank him for that.
    My final question is a more difficult question, at least 
for me, because when I am in my district, and I have a district 
which has a very large central city population, has a very 
large, unemployed population at a time when, as everyone in 
this room knows, unemployment records are at decades lows; and 
I preach over and over again education, education, education, 
because I fear what we are seeing is a growing gap between 
those people who do well in society and those people who do not 
do well in society economically.
    And I realize that we could talk for 50 hours on this, but 
what thoughts do you have on whether we should be or how we can 
be closing that income gap?
    Ms. Herman. You are right. We could talk probably for 50 
hours. This is a subject obviously that is very close to me 
personally. I think that there are a lot of things that 
obviously we can do in this area. Very specifically, I am 
hoping, one, that we can more aggressively target the resources 
of the Department, particularly through our training programs, 
to those most in need who are really trapped in the old economy 
where we see the income disparity that is so great, to get them 
the appropriate skills and training that they do need for the 
real jobs and time in the future. And I intend to closely 
monitor our own targeting of our resources, particularly in 
those programs where we have the flexibility to work at the 
local level to ensure that that can happen.
    As we look in particular at the President's 1998 budget, we 
have made a request for additional resources in the out-of-
school-youth area for communities such as the one that you have 
described, where we can hopefully begin to target young people 
at an early age to break the cycle of dependency earlier to get 
them into better-paying jobs, jobs that will have real skills 
with lifelong capacity at the end of the day.
    To the extent that we can use some of the very practical 
experiences that we have in the Department to upgrade training, 
to upgrade learning, and to make that connection, I am hopeful 
that we will be able to do this through this pilot experience.
    One of the things that I would like to see us do more of at 
the Department, quite frankly, is to replicate successful 
models and to be able to share that information and those 
techniques where we can move people into better-paying jobs. I 
also believe that, overall, as we look at the whole question of 
the wage structure today and the service economy in particular 
that is growing at a rapid rate where a number of the jobs are 
being created, that we need to have more innovation in terms of 
what we can do to target resources and capacity building into 
those areas in the workplace today where the jobs are actually 
being created to bring up the standard of living in those 
occupations. And to the extent that we can be more innovative 
and creative in doing that, I want to.
    And, last--and I will just stop with this as a comment--I 
believe very strongly also that the work of the Skill Standards 
Board can help us a great deal in this area to better identify 
what are the real skills that employers are going to need in 
the future as we look at the job demands as well as the 
requirements of workers, and the work that Jamie Houghton and 
others have begun in this area, I think, will be valuable to us 
as we begin to examine more closely practical solutions on what 
we do to close the income gap.
    Mr. Shays. Again, thank you for coming. I, as you were 
talking, was thinking that one of the challenges is I am not 
sure that big government, big business, big labor can adapt 
quickly enough to all the changes that are taking place. We 
were talking about this, Larry and I were just talking about 
it, and we were saying that 18 months ago Windows 95 did not 
even exist, and yet that is a basic information system software 
that everyone really needs to use, and it did not exist a very 
short time ago.
    And it may disappear quickly with something taking its 
place, which leads me to talk to you about welfare reform, job 
training, and the ability of the Bureau to marry labor 
statistics in terms of occupational needs with very real job 
training needs.
    The bottom line: I am just trying to see the connection 
between job training programs and how they relate to jobs that 
actually exist. While you are just thinking about the answer, 
let me just give you another sense of why I am asking the 
question.
    When we had a hearing on job training programs, I was 
amazed on how much we spent on all the different departments, 
and I was amazed that we loaned out in 1 year alone $750 
million to individuals who went to schools of cosmetology. Many 
of them never got a job because there was no job that existed 
for them, and they did not pay back their loans because they 
said, ``I am not paying back a loan on an educational skill 
that I got where I do not have a job that I am even 
implementing. What a waste.''
    So just give me your thoughts on how you relate job 
training to the jobs that actually exist.
    Ms. Herman. Well, first of all, I think the first priority 
has to be that training programs have to be targeted to the 
jobs that do exist. Then the question becomes, what is the best 
way to do that, what are the appropriate systems that you need 
to have in place, and what are the appropriate strategies to 
make that happen; and what are the resources in the Department 
of Labor that we can use and throughout the administration to 
bring that appropriate match about?
    When we look at the Department of Labor, in particular, we 
certainly realize that we have the Bureau of Labor Statistics 
and other statistical capacities, if you will, that engage in 
job predictability that certainly we ought to be in a position 
to share more broadly, let's say, with the Department of 
Education, as we are looking at ways to have better 
coordination.
    I might add, Mr. Chairman, this is something that I have 
actually had a conversation with Secretary Riley about, and he 
agrees that this is an area where we can share resources more 
appropriately to help with some of the training and skill 
development that is taking place on the education front.
    We also have at the local level in communities around the 
country the private industry councils that have the 
responsibility for being more locally tied to their own labor 
markets that, in my view, are probably the best people to be 
predictable indicators of what is going on in their own local 
economies, working with local job forecasting and economic 
development offices.
    We need to do a better job of coordinating with those local 
entities as well in terms of our own statistical work. As you 
look at new programs that we have mounted, such as the School-
to-Work Transition Act, here we have the opportunity, and I 
believe that we are doing a good job, from what I have seen in 
terms of the initial reports, of making sure that we are more 
appropriately linking school to work and that the education and 
the training and, to some extent, the apprenticeship 
opportunities that these young people are engaged in are, in 
fact, tied to the skill developments that they are going to 
need for the real jobs that will be there in the future.
    In short, what I would say is that we need to take the 
information and the resources clearly that we have available at 
the Department and do a better job of coordinating with other 
departments and agencies like the Department of Education, in 
particular, that has the mandate for educational requirements, 
to make sure that where appropriate we can share information 
and make sure that we are doing a better match.
    I believe that the Job Training Consolidation Bill that we 
have looked at as well that just recently passed the House will 
give us the opportunity to do that, and as we look in 
particular at the one-stop career centers that are being 
operated around the country today, we are looking at how we can 
bring in other departments and agencies into the one-stop model 
so that we have a better coordination, if you will, at the 
local level to take advantage of the Department's services.
    We have done it with HHS, and we need to look at how we can 
further explore that, I think, with the Department of Education 
as well.
    Mr. Shays. Thank you. The Bureau of Labor Statistics is an 
organization that technically is not independent. It is not an 
independent agency, but in a sense, it has functioned somewhat 
independently. While some would say it just gathers statistics, 
the impact of what it decides is tremendous, and I am 
interested to know how you are able to interact with the 
Department without it becoming--first off, do I make an 
assumption that there is a point at which you have to be 
careful?
    It is a unit within the Department of Labor that you 
oversee, but the data it gathers makes millions and costs 
millions to people. We depend on it, for instance, in terms of 
the Consumer Price Index, ultimately. So I would like to just 
know how you interact and what can we do to help them become a 
little more up to date and speed up the process of gathering 
statistics so that the statistics are more timely.
    Ms. Herman. Well, I think it is very important, certainly 
for me as Secretary of Labor, to make sure that the 
independence of BLS is protected, and I view my job largely as 
one of making sure that the Bureau of Labor Statistics has the 
resources that it needs.
    Mr. Shays. Let me just clarify one thing.
    Ms. Herman. OK.
    Mr. Shays. Is it independent by statute or independent by 
custom?
    Ms. Herman. It is independent by custom, not by statute, 
per se. But to maintain, I think, the integrity, if you will, 
of the Bureau of Labor Statistics, I think that we have to 
continue to protect that integrity by, in fact, insulating it 
from political considerations and allowing the technical 
experts to be able to do its job.
    So, for me, making sure that it has the resources to do 
that and, second, as it relates in particular even to the 
question that we just discussed, how can the information that 
the Bureau is gathering be more broadly shared in terms of the 
outputs and its products is something that I think we can be 
more supportive of in terms of the work of the Bureau of Labor 
Statistics itself because, as you know, we all depend on the 
statistical data that the Bureau does gather.
    Mr. Shays. We had a hearing about the CPI, and Mr. Barrett 
was there for some of it as well, and I went with the sense 
that the CPI is out of date, that the basket of goods and 
services needs to be revised and there are issues of 
substitution. What I left with was the sense that under the 
present capability, whatever adjustments it makes to that bread 
basket would not have any financial impact until 1999 and 
beyond, so not next year's budget but the budget afterwards, 
which was a surprise to me.
    But are you relatively comfortable or very comfortable that 
the Office has all the resources it needs to ensure that it is 
as quick as possible--as current, not as quick--as current as 
possible with its statistics; and, second, that it has the 
ability to review issues like CPI and review it well?
    Ms. Herman. Well, we have a request in the 1998 budget. 
When you say the ``degree of comfort,'' I think it is tied in 
part to the resource request that is actually in the 1998 
budget, because we have made a request for additional support 
for BLS to continue its improvement process, if you will, to 
the CPI revisions.
    Mr. Shays. If you find that the Committee on Appropriations 
is not inclined to favor that request, I would like to make 
sure that you have your staff let our committee know, and we 
would like to weigh in on that regard.
    Ms. Herman. Thank you, Mr. Chairman. We will be certain to 
do that.
    Mr. Shays. Would you--I mean, we will as well, but if you 
get information that lets us think that it will not be 
respected and be able to be funded. Getting to this whole issue 
of the audits and the issue of full-scope audits and limited 
audits dealing with retirement pension funds, I am fascinated 
by this issue, and you made reference, I think, to that in 
saying you would forward a proposal.
    Can you, in simple terms, tell me how someone qualifies for 
a limited scope audit? These are big pension plans that instead 
of having a full audit, end up with a partial audit that 
basically tells us nothing or very little. First, how do you 
qualify for that?
    Ms. Herman. Well, when we talk about a plan that has a 
limited scope audit, what you are basically saying in simple 
terms is that the CPA that is certifying the plan assets will 
not give a full opinion. It will only give a qualified opinion 
because they have not had the benefit, if you will, of having 
the full certification of the full plan.
    Mr. Shays. How does someone--to me, I consider it a 
loophole, and would that be your sense?
    Ms. Herman. Oh, it is definitely a loophole in the 
legislation, and that is why----
    Mr. Shays. And the loophole occurs because of----
    Ms. Herman. The loophole occurs because right now you can 
actually opt to have a limited scope audit.
    Mr. Shays. By doing something.
    Ms. Herman. Well, you can opt to have a limited scope audit 
because if you are with a financial institution, a bank or an 
insurance company, that is regulated, you have the option there 
for saying that you will invoke ``a limited scope audit.''
    Mr. Shays. So, for instance, if in a major pension plan 
they had a $100 certificate of deposit from a bank or a credit 
union in a $100 million pension plan, that would qualify them 
for a limited scope audit?
    Ms. Herman. It would qualify them for a limited scope audit 
if they are in a regulated Federal institution, if that is 
where their assets are held, and if they have----
    Mr. Shays. For some. It does not have to be all. Correct?
    Ms. Herman. Right. And if they have 100 or more 
participants in their plan, then they can qualify for a limited 
scope audit, and what we are trying to do is to close that 
loophole by basically saying that if you have that much in 
terms of assets in a regulated institution, be it a bank or 
insurance company or what have you, that we need to have a full 
audit.
    Mr. Shays. My sense from your testimony is there are about 
32,000 of these potential audits and close to $1 trillion of 
assets that basically your Department has very little comfort 
level that these pension funds are secured funds.
    Ms. Herman. That is correct. And it covers actually about 
23 million workers when you talk about those 30,000-odd plans; 
and we also know, in plans where we have had full audits, if 
you will, that the recovery is about four times as great as 
with those plans that do not have it. So we have actually seen 
evidence of what can happen.
    Mr. Barrett. When you say ``recovery,'' what do you mean?
    Ms. Herman. When I am saying recovery when you go in to 
actually review and conduct an audit of your plan, if there are 
things that are found to be in question or issues that could 
speak to the viability of the plan, that the likelihood of 
getting that information around the soundness of the plan is 
four times as great in plans where we have full audits as 
opposed to limited scope.
    Mr. Shays. Now that the Department has forwarded its 
request for reform, we are going to be weighing in as an 
oversight committee to encourage the statutory committees to 
move forward. Just tell me what is your knowledge of why, in 
the 7 years under Republican and Democrat White House and 
Congress, there has been no action. Is there a general sense 
that it is just totally the issue of Republicans not wanting to 
regulate--what is the bottom line--and Democrats not wanting 
what?
    Ms. Herman. Well, you know, it is interesting because I 
have asked that question, too, and I have concluded--this is my 
personal opinion--that it really is not about Republicans or 
Democrats. The bill was first introduced by Senator Dole in 
1990, in terms of the need to close the loophole here, so it 
has enjoyed bipartisan support in terms of an effort really for 
the last 7 years.
    I do think, in part, that some of the misunderstandings 
may, in fact, be due to not having a greater appreciation for 
what is at stake here in terms of what it is we are trying to 
do and viewing this as being overburdensome in terms of the 
process.
    Mr. Shays. The full scope is burdensome, and the limited 
scope is----
    Ms. Herman. I think that could potentially be the 
perception here. That is why one of the provisions in the bill 
actually could state that you do not have to bring in 
additional accountants, if you will, to certify the plan, but 
if the institution, let's say, that you just referenced in your 
own model has its own accountant already on board, then we will 
accept the opinion of that accountant that is already 
certifying the existing plan, so there really is not a laying 
on of additional administrative requirements. I think that 
could be in part the perception around the intent of the 
legislation.
    Mr. Shays. But a full scope means you are going to do a lot 
more investigating. There is going to be greater cost, but the 
bottom line is we want to know what is happening to $1 
trillion.
    Ms. Herman. We want to know what is happening, and the 
bottom line is that if there is a certified accountant that is 
already in place for, let's say, a NationsBank or a 
Metropolitan Insurance Co., then that accountant would simply 
have to verify as well the assets of that plan as a part of the 
overall portfolio.
    Mr. Shays. I am very happy that on a bipartisan basis we 
passed the Health Care Portability Act, and this is something 
that Tom and I know had been around Congress for a long time, 
and it was great to finally see this come to fruition. I am not 
quite sure how the Department of Labor weighs in, and I am not 
sure we gave you any additional resources to do this, but what 
is the role of the Department of Labor in overseeing the Health 
Portability Act?
    Ms. Herman. Well, the Department has a substantial role in 
overseeing the act. We had the responsibility for actually 
issuing the interim regulations, the final regulations, which 
the Department did do the first of April this year, and we will 
have the responsibility for basically enforcing that provision 
and health plans as the law now kicks in. The way it works, any 
plan that employers are mounting after the April 1 date has to 
come into compliance on an annual basis with the HIPPA 
requirements specifically as it related to the portability of 
pre-existing medical conditions. We will, of course, be 
continuing to analyze the regs in its interim final stage, and 
we will have the responsibility for issuing final regs on this 
legislation.
    Mr. Shays. So you do the regulations, but I do not quite 
understand how the oversight--will you go into businesses and 
determine if they are following it?
    Ms. Herman. We will have to take on the traditional 
enforcement responsibilities that go with the legislation.
    Mr. Shays. And will it be done when you do something else, 
when you are going in for some other issue? It will not be OSHA 
inspectors. Who will be doing this?
    Ms. Herman. We have actually asked for additional resources 
in the President's 1998 budget. We have actually asked for 63 
additional positions to help with the enforcement of the HCFA 
regs.
    Mr. Shays. Who would take the complaints? If there is a 
complaint, who would it----
    Ms. Herman. It would go into PWBA. They have the 
responsibility.
    Mr. Shays. Do they have offices around the country?
    Ms. Herman. They do have offices around the country.
    Mr. Shays. So this is the same group that basically would 
oversee retirement funds will oversee it.
    Ms. Herman. It is the same group, but that is why we have 
asked for additional resources in the 1998 budget, to help with 
the enforcement aspects of the HCFA regs.
    Mr. Shays. I just have a few more questions. Mr. Barrett, 
do you have some?
    Mr. Barrett. Just a couple, if I could?
    Mr. Shays. Feel free, as many as you want.
    Mr. Barrett. To go back to the issue of the pension plans, 
of the 32 pension plans that qualify for a limited audit, have 
you any breakdown as to how many of those have gone out of 
their way to avoid the audit by putting a small amount into a 
regulated financial institution, or are most of them legitimate 
ones that just happen to fall into the category that allows the 
exception?
    Ms. Herman. I do not have any specific data on that. I 
should point out it is 32,000----
    Mr. Barrett. I am sorry.
    Ms. Herman [continuing]. I do not have specific data on 
that. I will be happy to check with the staff to see if we have 
any profiles on that. I think the general view here, though, is 
that it is the latter as opposed to the former aspect of your 
statement.
    Mr. Barrett. I am sorry. So that means?
    Ms. Herman. That it is generally those plans with 100 or 
more participants that are in institutions that are federally 
regulated that would fall under the limited scope audit 
provision as it is now presently stated in the legislation.
    Mr. Barrett. OK. And if you have an accountant that is 
doing a qualified analysis, what does that show us, or what 
does that tell us?
    Ms. Herman. Presently? You mean as it is presently?
    Mr. Barrett. Yes.
    Ms. Herman. Well, basically what it says is that if it is a 
qualified opinion, it is a qualified opinion and that they 
would not give you the full certification that all of the plan 
assets and all of the backing that is stated is, in fact, 
there.
    Mr. Barrett. But does it do us any good? Does it do you any 
good to get that qualified opinion?
    Ms. Herman. Well, obviously, some representation is better 
than none, but it is not what you want to have for $1 trillion 
of assets in terms of the Nation.
    Mr. Barrett. OK. Thank you. I have no other questions.
    Mr. Shays. Thank you. As it relates to OSHA, OSHA does not 
have enough inspectors to go out and periodically visit every 
business on an ongoing basis, and so it has established a 
program where if businesses continue to show a good record and 
not have many complaints, no accidents, they are able to be 
more self-policing. We refer to it as the ``Maine plan'' in one 
instance where they took 200 businesses.
    Ms. Herman. Maine 200.
    Mr. Shays. Are you on board with that approach, or are you 
opposed to it? How do you weigh down on that one?
    Ms. Herman. Oh, I am very supportive of the Compliance 
Assistance Program that OSHA is now operating. I think it helps 
us to get more small businesses involved with understanding the 
requirements of OSHA, and I also think in terms of just more 
effective management of our resources, since we cannot cover 
obviously every workplace today, to the extent that you can use 
models like Maine 200, it is very helpful.
    Mr. Shays. Is the Department still comfortable that the 
program is working well?
    Ms. Herman. We are still comfortable that the program is 
working well, and obviously where we can make improvements, we 
will do that, and as more communities use the model, I am sure 
that we will benefit from those learnings.
    Mr. Shays. Are you aware of any problem--I am not, so I am 
not asking it with a hidden agenda here, but are you aware of 
any problems that are not working out, that there are some 
kinks in the program that you think need fixing, or is it 
pretty much going according to plan?
    Ms. Herman. I think anything that is--and I am not aware of 
any huge problems either, but just from a conceptual standpoint 
of view, I think any experimentation that is still as new as 
this one, you have to assume that there are still some blips in 
the road as we attempt to educate and involve more of the 
employer community around this effort, and there obviously will 
be some issues, I am sure, that will be raised somewhere along 
the way still.
    Mr. Shays. Let me get to the last area, and that deals with 
a hearing that we had on July 11 of last year with the 
Department's criminal and civil enforcement duties. You have 
reference to that in your statement, and you refer to some of 
it in your statement in your oral testimony. There has been a 
longstanding disagreement between the Inspector General again 
and the Department as to what the Department should be doing. 
As we reviewed it, some of it we agreed with and some of it we 
felt, frankly, was straining out gnats and swallowing camels. 
We felt that there could be room for some better communication 
between the Department and the Inspector General.
    Are you finding that dialog taking place, and is it a 
positive dialog?
    Ms. Herman. I think it is a positive dialog. I think the 
fact that we now have a formal coordinating team comprised of 
all of the various enforcement agencies in the Department is 
useful and helpful, and not only have we instituted this at 
headquarters, but as I indicated in my written statement, we 
are actually now trying to replicate this at the regional level 
as well, and to the extent that information is being shared, 
strategies are being shared, I think it will be a benefit 
overall to effective enforcement coordination.
    Mr. Shays. I said it was the last area, but I would like to 
just revisit one area that I have made mention to, and that is 
the whole issue of welfare reform and job training. I would 
like to know your view about one tradition, particularly at the 
Department of Labor, has been you get job training and you look 
for work, and another one that has started to evolve is, you 
have job training--by the way, the people who are giving this 
job training are going to be staying in touch with you while 
you have this job.
    They are going to be calling you up in the morning 
sometimes, finding out that you may not be going to work 
because you do not have day care, and they are going to say, 
``Well, you have got to find a solution to that,'' and the job 
trainer is in touch with the employer and saying, ``Are you 
pleased?'' and the employer is saying, ``Well, I am pleased 
about this, but we do not have success, that we are having 
problems here. The employees come in late.''
    And we, in fact, have found that some programs where you 
actually do not pay the job trainer until a year later or 6 
months later, so they have a stake in the person not just 
getting the training but getting a job and being able to stay 
on the job.
    Do you have any initiatives in that area? Do you focus any 
attention? Are you thinking about this at all? This is an area 
you have had a background with, but I am just curious as to 
what your thinking is.
    Ms. Herman. That is an area that I am taking a look at, Mr. 
Chairman. I think what we have to concentrate on that is 
equally important is not just securing the job, but what we do 
to help people keep the jobs for the long haul. And so the 
ability to have follow-through services, if you will, follow-
through support as a part of our job-training systems, I 
believe, is something that we need to take a look at, what we 
can do to foster greater flexibility in this area with our 
existing programs to allow for this kind of activity to occur, 
what can we glean to date from models that we are operating in 
this area that can prove to us that these kinds of activities, 
in fact, lead to a greater retention; and, therefore, a greater 
payout in the long haul is an important area that I intend to 
give greater attention to.
    Mr. Shays. Thank you. I would conclude. Do you have any 
concluding comment that you would like to make? I just have one 
other comment I would make, not a question. Do you have 
anything else you would like----
    Ms. Herman. No. I would just say, in conclusion, I 
appreciate the opportunity to appear before you and this 
committee, and I particularly appreciate the interest that you 
have taken in not only just the oversight questions into a 
number of the programs of the Department, but our ongoing 
fiscal health as it relates to how we maintain our 
effectiveness.
    Mr. Shays. We look forward to working with you and your 
Department, and I would say to you in public--I have said it to 
you privately--that I believe that this administration and this 
Congress have a vested interest in working together, obviously, 
for the American people.
    We both have decided that we were going to move forward 
with welfare reform, and we may have had our differences in 
certain aspects, but the bottom line is I think we are going to 
be judged by the success or failure of our ability to get 
people off welfare and into work. And if you do not succeed in 
that, this Congress will have failed, as well as the White 
House.
    So the success or failure of that will depend on how 
people, I think, in the years to come view how well we in the 
Congress and the White House have done our jobs, so we are 
definitely going to be working together.
    Ms. Herman. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. And with that, I will close this 
hearing. Thank you for being here.
    [Whereupon, at 2:10 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
